No. 19-783

In the Supreme Court of the United States
─────────────
NATHAN VAN BUREN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
─────────────
On Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit
─────────────
BRIEF OF KAREN HEART AND ANTHONY
VOLINI OF CIPLIT AS AMICI CURIAE IN
SUPPORT OF RESPONDENT
Karen Heart
Counsel of Record
Anthony Volini
CENTER FOR
INTELLECTUAL PROPERTY
LAW & INFORMATION
TECHNOLOGY
DePaul College of Law
25 E. Jackson Blvd.
Chicago, IL 60604
(312)362-1469
kheart@depaul.edu

TABLE OF CONTENTS
Page
INTEREST OF AMICI CURIAE ............................ 1
SUMMARY OF THE ARGUMENT........................ 2
ARGUMENT ........................................................... 3
I.

THE CFAA PROTECTS EMPLOYERS
FROM TREACHEROUS EMPLOYEES
WHO STEAL EMPLOYER OWNED OR
CONTROLLED PROPERTY, TYPICALLY
ELECTRONIC INFORMATION. .................. 3

II.

THE CFAA IS A MODERN TOOL TO
CRIMINALIZE EMPLOYEE THEFT OF
EMPLOYER OWNED OR CONTROLLED
INFORMATION MUCH LIKE ITS
PRECURSORS, THE MAIL AND WIRE
FRAUD ACTS. ............................................... 7

III.

ACTIVITY THAT DOES NOT INVOLVE
UNAUTHORIZED ACCESS OF DATA
OWNED OR CONTROLLED BY A
VICTIM IS OUTSIDE THE SCOPE
OF SECTION (a)(2) OF THE CFAA. ............ 9

CONCLUSION ...................................................... 16

ii
TABLE OF CITED AUTHORITIES
Cases

Pages

Carpenter v. United States, 484 U.S. 19 (1987) . 7, 8
Facebook v. Power Ventures, 844 F.3d 1058,
1066 (9th Cir. 2016) ....................................... 11, 12
People v. Hajostek, 49 Ill. App. 3d 148, 149,
363 N.E.2d 1208, 7 Ill. Dec. 46 (3rd Dist. 1977) ... 4
People v. Janisch, 2012 IL App (5th) 100150,
966 N.E.2d 1034 (Ill. App. Ct. 2012) ............... 9, 10
People v. Lewandowski, 43 Ill. App. 3d 800,
357 N.E.2d 647, 2 Ill. Dec. 480 (2nd Dist. 1976) ... 5
People v. Oglesby, 2016 IL App (1st) 141477,
69 N.E.3d 328 (1st Dist. 2016) ............................... 4
People v. Schueneman, 320 Ill. 127,
150 N.E. 664 (1926)................................................ 3
State v. Sawko, 624 So.2d 751
(Fla. Dist. Ct. App. 1993) ....................................... 4
United States v. Drew, 259 F.R.D. 449,
2009 U.S. Dist. LEXIS 85780
(C.D. Cal. 2009) .................................. 10, 11, 13, 14
United States v. Manning, 78 M.J. 501,
2018 CCA LEXIS 264, 2018 WL 2437948
(A. Ct. Crim. App. 2018) .......................... 10, 12, 13
United States v. Valle, 807 F.3d 508,
2015 U.S. App. LEXIS 21028 (2nd Cir. 2015) ....... 6
WEC Carolina Energy Solutions v. Miller,
687 F.3d 199; 2012 U.S. App. LEXIS 15441
(4th Cir. 2012) ..................................................... 5, 6

iii
Statutes

Pages

18 U.S.C. § 1030(a)(1) ........................................... 12
18 U.S.C. § 1030(a)(2) ....... 6, 7, 9, 11, 12, 13, 14, 16
18 U.S.C. § 1030(a)(4) ........................................... 14
18 U.S.C. § 1030(a)(5) ........................................... 14
18 U.S.C. § 1030(e)(6) ..................................... 13, 14
18 U.S.C. § 1341 ...................................................... 7
18 U.S.C. § 1343 ...................................................... 7

1
INTEREST OF THE AMICUS CURIAE
DePaul’s Center for Intellectual Property Law &
Information Technology (CIPLIT®) was established to
promote research and concentrated study of
intellectual property and information technology law,
broadly defined. We seek to develop IP professionals
of the highest caliber through an all-inclusive
learning experience that combines outstanding
classroom education, innovative scholarship, firstclass training in lawyering skills, career counseling
and an unparalleled range of extracurricular
activities.
As faculty of CIPLIT, we submit1 this brief amicus
curiae because of the urgent need to harmonize the
rule of law with computer technology. We teach
courses on cybersecurity and data privacy and,
therefore, are intimately familiar with the practices
and procedures necessary for maintaining proper
computer security. Accordingly, we believe that it is
essential that any decision concerning the reach of the
CFAA be grounded in the practicalities of data
protection. Our argument clearly distinguishes
malicious behavior that the CFAA aims to prohibit
from innocuous behavior that does not infringe on
possessory interests.

No counsel for a party authored this brief in whole or in part.
No person other than amici curiae have made a monetary
contribution to its preparation or submission. The parties have
consented to the filing of this brief.
1

2
SUMMARY OF THE ARGUMENT
The Computer Fraud and Abuse Act (CFAA) was
designed to protect against misuse of data stored in
computers. Indeed, the CFAA is the primary federal
law designed to protect employers from employee
theft by misuse of computers. By affirming
Petitioner’s conviction and overruling contrary
holdings, employees could be held accountable for
abuses of information for which the employer holds a
superior possessory interest.
Moreover, the language of the CFAA does not
support prosecutions for ordinary behaviors, such as
checking one's Facebook account while using a
computer at work. The crux of the argument by the
Petitioner and various amici curiae is that the CFAA
can be used to overreach in such circumstances. This
concern is unfounded because customary activities,
such an employee’s visit to Facebook, does not infringe
any possessory interest of the employer that is
required for conviction under section (a)(2) of the
CFAA.

3
ARGUMENT
I. THE CFAA PROTECTS EMPLOYERS FROM
TREACHEROUS EMPLOYEES WHO STEAL
EMPLOYER OWNED OR CONTROLLED
PROPERTY, TYPICALLY ELECTRONIC
INFORMATION.
Prior to enactment of the CFAA, various precedents
supported the principle that stealing employer owned
or controlled property supports a criminal charge
notwithstanding the generally contractual nature of
the employment relationship. This principle includes
theft of employer money or misuse of employer assets
for personal benefit so long as the misuse is clearly not
authorized by the employer. In the context of the
CFAA, the employer property is typically electronic
information owned or controlled by the employer.
However, pre-CFAA cases involving traditional
property, such as money or physical assets, provide
precedent on the general principle of misuse of
employer property supporting a criminal charge. A
core issue is whether the employee has exceeded the
scope of his employer’s consent with regard to use of
employer entrusted money or other assets. A very
clear example of this principle occurred in People v.
Schueneman, 320 Ill. 127, 150 N.E. 664 (1926).
Schueneman, an employee bookkeeper, was
authorized to deposit his employer's funds into the
bank but, on one occasion, skimmed money from
employer deposits. The Illinois Supreme Court held
that the defendant’s taking of the funds was beyond
the authority given by the employer and, therefore,
upheld the conviction for theft.

4
The same principle was applied recently in People
v. Oglesby, 2016 IL App (1st) 141477, 69 N.E.3d 328
(1st Dist. 2016). Oglesby was the deputy chief of staff
for the president of the Cook County board and used
her authority to issue contracts with private entities
that she owned. Despite her authority to spend
employer funds, the appellate court upheld her
conviction for theft because she accepted payment,
pursuant to a contract, but never rendered the
contracted for services.
An employee can also steal from his employer by
misusing employer assets entrusted to him for work
purposes. In People v. Hajostek, 49 Ill. App. 3d 148,
149, 363 N.E.2d 1208, 7 Ill. Dec. 46 (3rd Dist. 1977),
the defendant used his government work truck and
gravel for personal profit; specifically, he used the
employer’s truck to deliver and sell government
owned gravel to a private party. Although the
employee was authorized to use the truck to haul
gravel for a township, his use of those assets for selfprofit were very clearly outside the scope of his
employer’s consent, and thus his theft conviction was
affirmed.
This principle was applied to burglary in State v.
Sawko, 624 So.2d 751 (Fla. Dist. Ct. App. 1993). The
defendant was a maintenance worker employed by a
landlord. As might be expected, the employer landlord
gave its employee maintenance worker a physical
master key to access all of the employer’s tenant
occupied units. Nonetheless, the appellate court in
Florida held that the maintenance worker could be
found guilty of burglary if he entered units for an

5
unauthorized purpose, such as to steal tenant owned
property.
Hence, the question of consent has long constituted
a legitimate element in the prosecution of employees
for property crimes. Because due process demands
that proof of each element meet the reasonable doubt
standard, circumstances that reveal ambiguity fail to
support a conviction. For example, in People v.
Lewandowski, 43 Ill. App. 3d 800, 357 N.E.2d 647, 2
Ill. Dec. 480 (2nd Dist. 1976), a college purchasing
agent, along with his codefendant, bought surplus
federal government property to sell to a third party
and then return the proceeds to the college. When the
codefendant kept some of the proceeds, both the
defendant and codefendant were charged with theft.
However, the appellate court reversed the conviction
because there was insufficient evidence to prove that
the federal government had not consented to the
reselling of its surplus property.
There is no reason why traditional notions of
consent to use of property should not be applied to
criminal prosecutions under the CFAA, which may be
viewed as tantamount to a state law theft charge.
Indeed, the CFAA is the primary federal law designed
to protect employers from employee theft by misuse of
computers. In WEC Carolina Energy Solutions v.
Miller, 687 F.3d 199; 2012 U.S. App. LEXIS 15441 (4th
Cir. 2012), the defendants obtained confidential
information and trade secrets given their authorized
access as employees of WEC. Subsequently, the
defendants used the information to help one of WEC's
competitors obtain a contract from a company that

6
had been a potential customer of WEC. WEC sued,
alleging violation of the CFAA, but the district court
dismissed the claim and the Fourth Circuit affirmed,
holding that the CFAA was not unambiguous as to
such liability. Stealing an employer’s trade secrets for
the employee’s own benefit is quite clearly outside the
scope of the employer’s consent, even when the
employee is granted access to the secrets maintained
on a computer as part of that employee’s duties.
Holding one accountable for stealing employer owned
or controlled information by misuse of authorized
computer credentials is clearly within the purview of
Congress; this Court must overrule the decision in the
WEC case by affirming Petitioner’s conviction.
In United States v. Valle, 807 F.3d 508, 2015 U.S.
App. LEXIS 21028 (2nd Cir. 2015), the defendant was
a New York City police officer. Pursuant to his
employment, Valle was provided access to databases
that contained sensitive personal information about a
variety of individuals. NYPD's policy was that the
databases were to be accessed only for official police
business. In May of 2012, Valle accessed these
databases in order to gain information about a woman
whom he fantasized about kidnapping and
murdering. Valle admitted accessing the database for
his own personal purposes and was convicted of
violating the CFAA, but the Second Circuit reversed
the conviction on the basis that the intent of the CFAA
was unclear. By affirming Petitioner’s conviction and
overruling the decision by the 2nd Circuit, people such
as Valle could be held accountable for such outrageous
misuses of their employer’s databases, especially
considering the strong governmental interest in

7
protecting the privacy of civilians. Thus, this Court
must allow the government to pursue a criminal
charge under section (a)(2) of the CFAA, particularly
where an employee’s violation of an employer rule
regarding use of data is especially egregious, such as
sharing the information with a third party for
personal gain, as in this case, in order to vindicate the
goal of Congress to prevent such illicit market
activity. In another situation, section (a)(2) could be
violated where the defendant views classified
governmental secrets without an authorized purpose.
II.THE CFAA IS A MODERN TOOL TO
CRIMINALIZE EMPLOYEE THEFT OF
EMPLOYER OWNED OR CONTROLLED
INFORMATION
MUCH
LIKE
ITS
PRECURSORS, THE MAIL AND WIRE
FRAUD ACTS.
Computers have replaced a large volume of data
transmission that used to be handled by the U.S.
Postal Service and telephone calls. The federal mail
fraud statute, 18 U.S.C. § 1341, prohibits the use of
the U.S. mails to execute a fraudulent scheme.
Similarly, 18 U.S.C. § 1343, the wire fraud statute,
prohibits the use of electronic communication to
execute a fraudulent scheme. Thus, to the extent that
it prohibits the use of computers to execute employee
misuse of employer owned or controlled information,
the CFAA can be loosely viewed as the modern
equivalent of the mail and wire fraud statutes. It
follows that application of the CFAA to such
situations is equally permissible under the

8
Constitution as the application of the federal mail and
wire fraud statutes.
In Carpenter v. United States, 484 U.S. 19 (1987),
this Court addressed the question of whether
conspiracy to trade on a newspaper's confidential
information was within the reach of federal mail and
wire fraud statutes. Carpenter was convicted because
he was found to have aided and abetted others in a
conspiracy to commit mail and wire fraud. Winans, a
reporter for the Wall Street Journal, worked on a daily
column that gave positive and negative advice
pertaining to stock information. In gathering the
content for these articles, Winans interviewed and
received confidential information that, under the
policies of the Wall Street Journal, belonged to the
Journal prior to publication. Nonetheless, Winans
entered into a conspiracy with several individuals
who worked at a New York brokerage firm and
Carpenter to make profitable trades of securities
based on the yet to be published information. This
Court found that the confidential information was
generated by the Wall Street Journal in its function
as a business and, thus, that the Journal had the right
to decide how the information would be used prior to
it being released to the public. This Court ruled that
fraud, as used in the mail and wire fraud statutes,
included embezzlement, “which is ‘the fraudulent
appropriation to one’s own use of the money or goods
entrusted to one’s care by another.’” Carpenter at p.
27, citing Grin v. Shine, 187 U.S. 181, 189 (1902).
Accordingly, this Court affirmed Carpenter’s
convictions for mail and wire fraud.

9
As in Carpenter, the Petitioner fraudulently
appropriated data for his own use that had been
entrusted to his care by his employer, the Cumming,
Georgia, Police Department. Had Petitioner placed
the data in the mails or communicated it
electronically, he would have been found guilty of mail
or wire fraud. Because he obtained the data by
exceeding his authorized access, however, he violated
the CFAA. The fact that his conviction is based partly
on the policy of his employer regarding use of law
enforcement data does not differ from the fact that the
conviction of Carpenter was, likewise, based partly on
the policy of the Wall Street Journal regarding use of
its confidential data. Like the mail and wire fraud
statutes, the Computer Fraud And Abuse Act,
according to the second word in its name, was enacted,
in part, to prohibit the use of a computer as the
instrumentality to execute fraudulent activity.
III.

ACTIVITY THAT DOES NOT INVOLVE
UNAUTHORIZED ACCESS OF DATA
OWNED OR CONTROLLED BY A VICTIM
IS OUTSIDE THE SCOPE OF SECTION
(a)(2) OF THE CFAA.

It is well settled law that authorization to access
and use property is predicated on consent of the party
having the greater possessory interest, typically the
owner. Application of this principle to property
interests in computers is exemplified in People v.
Janisch, 2012 IL App (5th) 100150, 966 N.E.2d 1034
(Ill. App. Ct. 2012). In Janisch, the defendant was
charged with violating an Illinois statute, the

10
Computer Crime Prevention Law, that is analogous to
the CFAA. In particular, the defendant was convicted
of accessing the email account of her ex-husband
without authorization. On appeal, the defendant
argued that there was insufficient evidence because
the State did not offer evidence that she physically
accessed her ex-husband's computer or that she
accessed MSN's computer, which maintained the
emails, without consent. Citing the language of the
Illinois law, the court held that her ex-husband held a
possessory interest in MSN’s computer and, therefore,
could control who was authorized to access his email
account on it. In short, the public, including the
defendant, was permitted to access MSN's computer
in order to access their own email accounts
maintained by MSN, but the defendant exceeded her
authority by accessing her ex-husband's email
account on that computer without his consent. This
holding fits squarely within the long, venerable
history of jurisprudence considering consent to access
property as an element of a criminal charge. Neither
the Petitioner nor the other amici curiae have
advanced a reason to abandon this precedent.
Given this rule of law regarding possessory
interest, there is no reason to fear that ordinary
activities, such as accessing one's account on Facebook
to send a message while using a work computer, would
qualify for prosecution under the CFAA. Because the
user owns her/his data and, therefore, has the lawful
right to access her/his data maintained on Facebook’s
computers, as well as permission from Facebook to
send a message to another user, the fact that the
access occurs through a computer owned by one's

11
employer makes no difference to the issue of
authorized access of Facebook’s computers. Alarmist
fears that affirming Petitioner’s conviction would give
rise to criminal liability for such mundane acts are
unfounded.
The crux of the argument by the Petitioner and
various amici curiae is that the CFAA can be used to
overreach in such circumstances. This concern arises
primarily from two cases, United States v. Drew and
United States v. Manning. A review of these cases,
however, reveals that the concern arose from judicial
error rather than the language or intent of the CFAA.
In 2006, Lori Drew participated in a scheme with
others to post a fake profile on the MySpace website,
in direct contravention of MySpace's terms of use.
Drew and the others posted a caustic message to
another MySpace user whom they knew in real life;
the message stated that the world would be better off
without this other user, who was a young teenage girl.
Later that day, the girl committed suicide. The US
Attorney’s office prosecuted Drew for criminal
violations of the CFAA and a jury found Drew guilty
of violating section (a)(2) of the CFAA. Subsequently,
the trial judge granted Drew's motion to set aside the
verdict on the basis that the reliance on provision
(a)(2) to prosecute this offense was impermissibly
vague. United States v. Drew, 259 F.R.D. 449, 2009
U.S. Dist. LEXIS 85780 (C.D. Cal. 2009). Specifically,
the court held that using the CFAA to prosecute one
for violating a term of use prohibiting the posting of
fake profiles was constitutionally vague. While the
final result of dismissing the case was correct, the fact

12
that the trial judge let the matter proceed to jury
deliberation and verdict puts the public on notice that
computer users may be subjected to the jeopardy of
criminal proceedings before an improper prosecution
under the CFAA is halted. This error has struck terror
into the hearts of users everywhere and given impetus
to the amici curiae appearing before this Court.
This Court can best serve justice by taking care to
explain the error of such misguided enforcement
efforts. Notably, the general principle that a mere
violation of a term of use cannot serve as the basis for
a prosecution under the CFAA was reaffirmed in
Facebook v. Power Ventures, 844 F.3d 1058, 1066 (9th
Cir. 2016). Therefore, the Court should rule that
violating an alleged victim’s terms of use does not rise
to the level of a section (a)(2) violation where no
information owned or controlled by the victim was
obtained or altered. Applying this reasoning to Drew
would best explain the error therein while affirming
the dismissal of the charge. Affirming the reasoning
in Facebook v. Power Ventures and supplementing
with the foregoing reasoning will provide resolute
guidance against spurious threats to prosecute those
who violate terms of use, even unintentionally. More
importantly, this Court must clarify that any
prosecution under section (a)(2) of the CFAA rests on
the question of consent and that a term of service
would be applicable only to the extent that it clearly
established the possessory interests of the parties to
the contract as to computer information.
The more troubling case is United States v.
Manning, 78 M.J. 501, 2018 CCA LEXIS 264, 2018

13
WL 2437948 (A. Ct. Crim. App. 2018), which,
admittedly, has less precedential value because it was
a court martial. Manning was an Army intelligence
analyst who downloaded classified documents and
gave them to Wikileaks, which published them.
Manning was prosecuted in a court martial, in part,
for violating section (a)(1) of the CFAA, relating to
transmitting classified data by accessing it in excess
of authority. During the proceedings, it was revealed
that Manning used a prohibited software program
that automated the downloading of the classified data,
rather than accessing the data manually as was
required by Department of Defense policy. The court
found that Manning had exceeded authority under the
CFAA by using the prohibited software; the military
court of appeals affirmed. Notably, the Court of
Appeals mused that had Manning downloaded the
data manually, "this would present a different issue."
Manning at 512. The CFAA, however, mentions
neither; nor does it mention anything about the
manner that data is accessed. Indeed, the definition of
accessing data in excess of authority is simply a
question of whether the person is entitled to access the
data. Section (e)(6) states that "the term 'exceeds
authorized access' means to access a computer with
authorization and to use such access to obtain or alter
information in the computer that the accesser is not
entitled so to obtain or alter." Because Manning was
not entitled to obtain information in the computer for
purposes other than assigned military duties, such as
publishing it on WikiLeaks, Manning exceeded
authorized access of the computer; whether Manning
accessed the information manually or by use of

14
automated software was irrelevant. Congress could
have added language about the manner of access, such
as software that automates downloading, but did not.
Hence, the military courts made an erroneous holding
that the manner of access was the determining factor.
This Court must not let the erroneous reasoning in the
Manning opinion stand.
By applying the language of the CFAA precisely, it
becomes evident that the CFAA does not support the
criminalization of any behavior prohibited simply by
a terms of use agreement. In particular, the CFAA
does not prohibit the intentional creation of false user
profiles. In the Drew case, the defendant created the
profile and stored it on the MySpace computer.
Because Drew had a valid account that authorized her
to create a profile and store the data, she did not
access data stored on MySpace’s computer without
authorization. More importantly, because MySpace
had given her an account that was designed
specifically to permit her to store a profile on the
MySpace computer, Drew did not exceed her authority
by storing the fake profile. Hence, section (a)(2) did
not prohibit Drew's conduct. Assuming arguendo that
Drew understood that the MySpace terms of use
prohibited the posting of fake profiles, Drew falsely
agreed to MySpace's terms of use in order to gain
access to their computer. In other words, she
committed fraud against MySpace in order to obtain
authorization. The CFAA prohibits precisely such
conduct but under section (a)(4). Nonetheless, section
(a)(4) also provides that the fraud must be for a
purpose other than to access the computer unless the
value of the use exceeds $5000 in one year.

15
Accordingly, that section did not prohibit the fraud
perpetrated
by
Drew.
Hence,
investigative
journalists, security researchers, and others who
must rely on the use of fake account profiles in order
to conduct bona fide research would similarly not be
subject to either section (a)(2) or (a)(4) of the CFAA for
doing so.
Moreover, section (a)(2) of the CFAA makes no
mention of software and certainly does not prohibit
the use of scraping techniques. As explained earlier,
the CFAA makes no mention of the manner of access.
Instead, section (e)(6) clarifies that exceeding
authorized access is based solely on the question of
whether one is entitled to obtain data. Nonetheless, as
conceded in the amicus curiae brief of the ACM,
section (a)(5) of the CFAA does prohibit scraping
behaviors, as well as any other conduct involving
access, that is so excessive that it causes significant
damage.
A careful examination of the language of the CFAA
reveals that it was crafted to balance competing
interests. Indeed, the use by whistleblowers of the
afore-mentioned techniques does not give rise to
liability under the CFAA. However, the publication of
confidential data by whistleblowers can be prohibited
by the CFAA. Divulging private data-- even to
journalists, may be considered criminal conduct under
certain circumstances, such as divulging classified
governmental information or trade secrets. Absent
such circumstances however, a business may not try
to hide evidence of a crime or other violations of the
law by way of restrictive computer use policies. Only

16
a use policy that may be validly enforced can serve as
the basis for a prosecution under the CFAA.
The complaint of the amici curiae that computer
security researchers have been threatened with
prosecution under the CFAA for their activities is,
sadly, true. While businesses and security researchers
should work together more amicably, the CFAA does
not strip businesses of their lawful right to govern
their affairs, even when it comes to matters of
computer security. In particular, businesses have the
right to refuse simulated attacks perpetrated against
them by security researchers. If this Court ruled that
security researchers can poke and prod the computers
of any business under a judicially-created "fair use"
doctrine, which is not envisioned by the CFAA, then
anyone could penetrate the computer systems of
businesses under the guise of security research. It
takes little imagination to envision unscrupulous
business people hiring so-called security experts to
undermine the operations of their competitors. The
CFAA prohibits such nefarious practices, and there is
no legal reason to thwart the intent of Congress.
Nevertheless, computer researchers are well within
their rights under the CFAA to conduct security
research so long as it does not damage computers or
access data that they are not entitled to obtain. Along
these lines, various non-invasive scanning techniques
are permissible where the scanning is looking for
network information viewable to the public because
viewing public data does not require authorization.
However, a scanning technique followed by some form
of penetration into an organization’s network would
support a section (a)(2) violation where the

17
perpetrator is accessing victim owned or controlled
information that is not publicly visible. Anyone can
stand on the street and observe that a building has
windows that are open but crawling through one
without authorization would constitute a crime.
CONCLUSION
This Court should affirm the opinion of the 11th
Circuit and hold that section (a)(2) of the CFAA can
be violated when an employee violates the possessory
interest of the employer by accessing data in excess of
authority.
Respectfully submitted,
Karen Heart
Counsel of Record
Anthony Volini
CENTER FOR
INTELLECTUAL PROPERTY
LAW & INFORMATION
TECHNOLOGY
DePaul College of Law
25 E. Jackson Blvd.
Chicago, IL 60604
(312)362-1469
kheart@depaul.edu
Date: September 2, 2020

